No. 20-520

In the Supreme Court of the United States
___________________

AMERICAN ATHLETIC CONFERENCE, THE ATLANTIC
COAST CONFERENCE, THE BIG TEN CONFERENCE,
INC., THE BIG 12 CONFERENCE, INC., CONFERENCE
USA, MID-AMERICAN CONFERENCE, MOUNTAIN WEST
CONFERENCE, PAC-12 CONFERENCE, SOUTHEASTERN
CONFERENCE, SUNBELT CONFERENCE, AND WESTERN
ATHLETIC CONFERENCE,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
___________________

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the
Ninth Circuit
___________________

REPLY BRIEF FOR PETITIONERS
___________________

BRITT M. MILLER
ANDREW J. PINCUS
ANDREW S. ROSENMAN
Counsel of Record
JED W. GLICKSTEIN
CHARLES A. ROTHFELD
Mayer Brown LLP
Mayer Brown LLP
71 South Wacker Dr.
1999 K Street, NW
Chicago, IL 60606
Washington, DC 20006
(312) 782-0600
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioner The Big Ten Conference, Inc.
[Additional counsel on inside cover]

ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Washington, D.C. 20001 Los Angeles, CA 90067
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

i
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court,
petitioners incorporate by reference the corporate disclosure statement that appears in the petition for a
writ of certiorari. No amendments are needed to make
that statement current.

ii
TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT ............i
TABLE OF AUTHORITIES..................................... iii
REPLY BRIEF FOR PETITIONERS ........................ 1
A. The Ninth Circuit misapplied the Rule of
Reason. ............................................................. 2
B. The Circuits are in conflict on the Rule of
Reason standard governing the NCAA and
other joint ventures. ........................................ 6
C. The errors committed below will have
enormously important and destructive
effects. .............................................................. 9
CONCLUSION ......................................................... 12

iii
TABLE OF AUTHORITIES
Cases
Agnew v. NCAA,
683 F.3d 328 (7th Cir. 2012) .............................. 7, 8
American Needle, Inc. v. NFL,
560 U.S. 183 (2010) ........................................ 4, 5, 8
Brown v. Pro Football, Inc.,
518 U.S. 231 (1996) ................................................ 4
Deppe v. NCAA,
893 F.3d 498 (7th Cir. 2018) ...................... 6, 7, 8, 9
In re NCAA Athletic Grant-In-Aid Cap
Antitrust Litig.,
375 F. Supp. 3d 1058 (N.D. Cal.
2019) ....................................................................... 9
McCormack v. NCAA,
845 F.2d 1338 (5th Cir. 1988) ................................ 8
National Football League v. Ninth
Inning, Inc.,
2020 WL 6385695 (U.S. Nov. 2,
2020) ................................................................... 2, 4
NCAA v. Board of Regents of Univ. of
Okla.,
468 U.S. 85 (1984) ........................................ passim
O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2015) .................... 1, 6, 8, 9

iv
Rothery Storage & Van Co. v. Atlas Van
Lines, Inc.,
792 F.2d 210 (D.C. Cir. 1986) ................................ 5
Smith v. NCAA,
139 F.3d 180 (3d Cir. 1998) ................................... 8

REPLY BRIEF FOR PETITIONERS
Plaintiffs conspicuously do not deny the key features of the holdings below. They could hardly dispute
that the Ninth Circuit confirmed a single district
judge as the perpetual overseer of college sports. They
evidently embrace the idea that, under the standard
set by the Ninth Circuit, litigation against the NCAA
and its member schools will continue endlessly, with
vast antitrust liability to follow after every change—
or even every consideration of change—in NCAA eligibility rules. Despite half-hearted efforts to minimize
the magnitude of the student-athlete compensation
authorized by the Ninth Circuit, plaintiffs must recognize that the ruling below will cause sweeping
changes to college sports, for the first time permitting
the payment of very substantial cash sums to studentathletes in return for playing. And plaintiffs agree
that the courts below mandated all of these broad
changes under the Sherman Act, even as Congress
and the states are considering very different sorts of
modifications to college sports as a matter of legislative policy.
In nevertheless opposing review, plaintiffs maintain that the decisions below, for all their enormous
practical importance, simply applied the Rule of Reason to the record in modest and unexceptional ways.
But that is not so: The extraordinary result below—
only the second decision (following the Ninth Circuit’s
own earlier ruling in O’Bannon) ever to have premised
antitrust liability on an NCAA eligibility rule—was
the product of an equally aberrational legal analysis.
As the petition showed and petitioners’ amici confirm,
the Ninth Circuit effectively applied a least-restrictive
alternative test that will make liability for a wide

2
range of joint ventures inevitable, discouraging procompetitive decision-making. And so far as NCAA eligibility rules in particular are concerned, the holding
below cements an acknowledged conflict in the circuits on the controlling standard; plaintiffs’ contrary
argument rests on the assertion that the Seventh and
other circuits did not mean what they plainly said.
As Justice Kavanaugh very recently observed, addressing similar circumstances: “Ordinarily, a decision of such legal and economic significance might
warrant this Court’s review.” National Football
League v. Ninth Inning, Inc., 2020 WL 6385695, at *1
(U.S. Nov. 2, 2020) (Mem.) (Kavanaugh, J., respecting
the denial of certiorari). And here, unlike in Ninth Inning, the Ninth Circuit’s decision is both final and immediately consequential. This Court should grant review and reverse.
A. The Ninth Circuit misapplied the Rule of
Reason.
1. Plaintiffs seize on isolated snippets of language
from the Ninth Circuit’s opinion to argue that its decision was an ordinary application of the Rule of Reason. Opp. 24-26. But that argument obscures the real
nature and necessary practical implications of the decisions below, which effectively require defendants to
satisfy a least restrictive alternative test. As amici antitrust economists explain, “both the district court and
Ninth Circuit effectively applied a ‘least’ restrictive alternative approach without placing any burden on the
plaintiffs to show that the alternative approach could
preserve the NCAA’s conception of its own product design.” Amici Antitrust Economists Br. 3. See Amici
Antitrust Law and Business School Professors Br. 34.

3
The course taken by the Ninth Circuit to reach its
finding of liability proves that point. Plaintiffs in this
case challenge “the NCAA’s entire [student-athlete]
compensation framework” (Pet. App. 17a), which includes a substantial set of interconnected limits on
payments to student-athletes that, in the aggregate,
are designed to preserve the unique status of college
sports. Assessing this challenge, the courts below
found that distinguishing college from professional
sports—which, as this Court recognized in Board of
Regents, is the manifest goal of these rules—does have
a procompetitive effect. Id. at 147a-148a, 42a-43a.
Nevertheless, at the second stage of the Rule of Reason analysis, the Ninth Circuit required defendants to
show that “each type of challenged rule” is procompetitive. Id. at 42a (emphasis added). Under that standard, defendants must prove that every restrictive element of the NCAA rules is strictly necessary—that is,
must satisfy a least restrictive alternative test.
And that understanding of the decision below is
confirmed by the Ninth Circuit’s analysis at the third
stage of the Rule of Reason inquiry, where it held that
plaintiffs established the availability of a less restrictive alternative because “the NCAA presented no evidence that demand will suffer” if payments to student
athletes are increased. Pet. App. 45a. Despite the
court of appeals’ additional passing statement that
plaintiffs were required to establish a less restrictive
alternative (id. at 43a), the court of appeals’ actual approach flipped the proper placement of the burden at
the third stage: Defendants were obligated to prove
that demand would suffer if the rules were changed.

4
That placement of the burden is critical. As explained in the petition (at 33-35), it always will be possible for plaintiffs in a case like this to argue that increasing permissible payments by just a little bit (or
eliminating just one of a set of restrictive rules) will
not diminish demand for college sports, while it will
be nearly impossible for defendants to prove that increasing student-athlete benefits just a little will destroy the rules’ procompetitive value. Plaintiffs make
no response to the petition’s showing that, under such
an approach, no procompetitive restriction ever will
be sustainable, leading joint ventures to lose the ability to design and market their products. See Pet. 3335; Amici Antitrust Economists Br. 6-8. The Ninth
Circuit’s decision therefore will be a template for future antitrust challenges, both to NCAA rules and to
myriad other joint ventures.
2. Plaintiffs seek to avoid this conclusion by asserting that the NCAA is not a joint venture at all because its member institutions are horizontal competitors. Opp. 26-28. In fact, however, joint ventures typically involve horizontal competitors. See, e.g., American Needle, 560 U.S. at 202 (although teams
comprising the National Football League are horizontal competitors, “‘[t]he special characteristics of this
industry may provide a justification’ for many kinds
of agreements”) (quoting Brown v. Pro Football, Inc.,
518 U.S. 231, 252 (1996)). Justice Kavanaugh recently
made that point, explaining that the “[t]he NFL and
its member teams operate as a joint venture” and observing that a rule precluding joint action by the
teams “appears to be in substantial tension with antitrust principles and precedents.” Ninth Inning, 2020
WL 6385695, at *1. That conclusion applies with obvious force in this case, where “[i]n order to preserve the

5
character and quality of the ‘product’”—college
sports—“athletes must not be paid.” Board of Regents,
468 U.S. at 102.
It is no answer for plaintiffs to further insist that
the Rule of Reason applies to joint ventures (Opp. 28);
the issue is not whether the Rule of Reason applies in
this case—everyone agrees that it does—but how it
applies. Here, rules that distinguish college from professional sports actually define the jointly produced
product and therefore are both necessary and procompetitive. See Board of Regents, 468 U.S. at 117-118;
Amici Antitrust Economists Br. 9. In such circumstances, under the Rule of Reason as articulated by
this Court and applied by other courts of appeals,
courts should not “calibrate degrees of legal necessity.” Rothery Storage, 792 F.2d at 227. Plaintiffs
make no response.
Plaintiffs also get no further with their lengthy
recitation of the district court’s factual findings and
their declaration that the Rule of Reason is “factbased.” Opp. 2, 12-13, 25-26. Those findings are beside
the point if evaluated under the wrong legal standard—as happened below. Nor are defendants asking
for “antitrust immunity,” as plaintiffs repeatedly assert. Opp. 4, 30. To the contrary, we agree that “[i]t
makes perfect economic sense * * * for antitrust
courts to scrutinize firms and collaborations when
they create restraints that go beyond the product design itself.” Amici Antitrust Economists Br. 7. And
even as to NCAA eligibility rules, which define the college sports product, Rule of Reason scrutiny governs.
But when joint action is necessary if the product is to
be marketed at all, “the agreement is likely to survive
the Rule of Reason.” American Needle, 560 U.S. at

6
203. The courts below disregarded that fundamental
principle.
B. The Circuits are in conflict on the Rule of
Reason standard governing the NCAA and
other joint ventures.
Plaintiffs make no serious response to the petition’s demonstration that the circuits are in conflict on
the level of scrutiny that is appropriate when a joint
venture’s rules in general, and NCAA eligibility rules
in particular, are challenged. Pet. 20-26. The decisions
that disagree with the Ninth Circuit did not, as plaintiffs would have it, simply accept an NCAA “assertion”
that eligibility rules are procompetitive. Opp. 2. Instead, expressly following Board of Regents, these
courts found that rules designed to preserve the
unique status of college sports are presumptively procompetitive. The Ninth Circuit has followed a different approach.1
1. The Seventh Circuit held in Deppe that “most
NCAA eligibility rules are entitled to the procompetitive presumption announced in Board of Regents because they define what it means to be a student-athlete and thus preserve the tradition and amateur
character of college athletics.” 893 F.3d at 502; see
Pet. 23-24. The Ninth Circuit, in the decision below
and in O’Bannon, definitively rejected that approach.
See Pet. 8-9, 24; Pet. App. 29a-30a. Deppe thus confirmed and solidified the conflict between the Seventh
and Ninth Circuits that the Ninth Circuit had expressly acknowledged in O’Bannon. See Pet. 23-24.
Plaintiffs are wrong in contending that defendants did not
make this argument below. Opp. 23. Defendants noted that the
Ninth Circuit had rejected the argument in O’Bannon, specifically preserving it here. Def. Joint. Op. CA. Br. 25 n.2.
1

7
Plaintiffs’ principal response is that Deppe, although decided three years after O’Bannon, applied
“pre-O’Bannon law.” Opp. 20. But Deppe states the
current standard in the Seventh Circuit; that rule cannot be reconciled with the Ninth Circuit’s approach,
both in this case and in O’Bannon; and the Seventh
Circuit, applying the Deppe rule, would have decided
this case differently than did the Ninth Circuit.2
In seeking to avoid that latter conclusion, plaintiffs note that the Seventh Circuit, in Agnew, held that
NCAA rules limiting the number of permissible athletic scholarships and restricting scholarships to one
year’s length are not designed to preserve amateurism, and therefore are not presumptively procompetitive. Opp. 21. But the Seventh Circuit reached that
conclusion in Agnew because it found that “[t]he Bylaws at issue in th[at] case” were “not eligibility rules,
nor do we conclude that they ‘fit into the same mold’
as eligibility rules.” 683 F.3d at 343. That was so because “[i]ssuing more scholarships (thus creating
more amateur players) and issuing longer scholarships cannot be said to have an obviously negative impact on amateurism.” Id. at 344.
This case, in sharp contrast, involves a challenge
to student-payment eligibility rules that seeks to “dismantle the NCAA’s entire [student-athlete] compensation framework.” Pet. App. 17a (emphasis added). It
is hard to imagine rules that are more “clearly meant
The Deppe plaintiffs addressed O’Bannon at length in briefing
before the Seventh Circuit, so there is no doubt that the Seventh
Circuit accounted for, and rejected, the Ninth Circuit’s approach.
See Appellants’ Opening Br., Deppe v. NCAA, No. 17-1711 (7th
Cir.), 2017 WL 2225300; Appellants’ Reply Br., Deppe v. NCAA,
No. 17-1711 (7th Cir.), 2017 WL 2851227.
2

8
to help maintain the revered tradition of amateurism
in college sports or the preservation of the studentathlete in higher education.” Deppe, 893 F.3d at 501
(internal quotations omitted). The litigation here,
which was brought specifically to increase payments
to student-athletes who were then playing, therefore
surely would have come out the other way in the Seventh Circuit. See Agnew, 683 F.3d at 343 (“bylaws
eliminating the eligibility of players who receive cash
payments beyond the costs attendant to receiving an
education * * * clearly protect[] amateurism”).
2. As for the Third Circuit’s decision in Smith and
the Fifth Circuit’s ruling in McCormack—decisions
that also upheld NCAA eligibility rules as presumptively procompetitive (Pet. 24-25)—plaintiffs observe
only that those courts invoked the Rule of Reason.
Opp. 20-21. But that is a non sequitur. Again, the
question is not whether but how the Rule of Reason
applies. The “twinkling of an eye” standard is not a
departure from the Rule of Reason; it is a recognition
that, “depending upon the concerted activity in question, the rule of Reason may not require a detailed
analysis.” American Needle, 560 U.S. at 203. The
Third, Fifth, and Seventh Circuits applied that principle to find NCAA eligibility rules lawful without a
detailed factual showing. See Pet. 24-25. The Ninth
Circuit expressly disagrees. See Pet. App. 38a (district
court “reasonably relied on demand analyses, survey
evidence, and NCAA testimony”).3
Plaintiffs’ argument that the decision below “faithfully” followed Board of Regents (Opp. 1) is obviously wrong; in this case,
as in O’Bannon, the Ninth Circuit dismissed this Court’s considered language in Board of Regents as outdated dicta. See Pet. 2122.
3

9
3. Although plaintiffs place great weight on this
Court’s denial of certiorari in O’Bannon (Opp. 1, 1011), the distinctions between this case and O’Bannon
confirm the importance of review here. Whatever
doubt existed on the subject at the time O’Bannon was
decided, the Seventh Circuit’s post-O’Bannon decision
in Deppe and the Ninth Circuit’s expansive reading of
O’Bannon below make the conflict in the circuits undeniable. Moreover, the court below characterized
O’Bannon as having involved “a narrow challenge to
restrictions on [name, image, and likeness] compensation,” while “[b]y contrast, this action more broadly
targets the ‘interconnected set of NCAA rules that
limit the compensation [student-athletes] may receive
in exchange for their athletic services.’” Pet. App. 31a32a (quoting Alston, 375 F. Supp. 3d at 1062).
And in O’Bannon the NCAA had abandoned the
only bylaw that would have been affected by the Ninth
Circuit’s decision even prior to that court’s ruling,
greatly limiting the practical importance of the case
(see Pet. 9 n.1); here, the courts below ordered sweeping changes to the whole set of NCAA eligibility rules.
These developments mean that this case is vastly
more significant than was O’Bannon, and make the
need for review now compelling.
C. The errors committed below will have
enormously important and destructive effects.
Plaintiffs make no response to the petition’s showing that the decisions below will have enormously important practical consequences, for college sports and
for joint ventures more generally.
First, plaintiffs do not deny that the district court
has appointed itself the perpetual overseer of college

10
sports. To the contrary, by emphasizing the extent to
which the Ninth Circuit reviewed the district court’s
decision under a highly deferential standard (Opp. 17,
26), plaintiffs accentuate the degree to which a single
judge is now responsible for setting the eligibility
rules that govern college sports nationwide. See Pet.
27.
Second, plaintiffs evidently recognize that the decisions below will unleash never-ending litigation
against the NCAA and its member institutions, centered in the Ninth Circuit, with potentially enormous
liability to follow over and over again. As plaintiffs’
counsel here already have initiated a new set of such
suits, they hardly could contend otherwise. See Pet.
28.
Third, the opposition confirms the extent to which
the approach taken below makes the NCAA’s authority to design its product into a one-way ratchet, with
any liberalization of the payment rules to be used by
future plaintiffs as a basis for establishing that prior
rules, including rules that have not been changed,
were illegal. Plaintiffs thus now insist that changes to
the amateurism rules over time show that the rules
never had, and now don’t have, validity—arguing that
every change is a source of liability. Opp. 8-9, 30; see
Pet. 29.
Fourth, plaintiffs are wrong when they assert
vaguely, and conclusorily, that changes to the NCAA
rules mandated by the courts below are “modest” (an
anodyne adjective to which they add the pregnant
qualifier “in many respects,” leaving apparent that in
unspecified other respects, the changes are not modest
at all). Opp. 3. Plaintiffs make no response to our

11
showings, among other things, that the decisions allow annual cash payments of at least $5600 to all student athletes—a sea change in current practice that
will have profound consequences; and that the decision also permits limitless, and possibly abusive, cash
payments to student-athletes for internships. Pet. 30.
It is no answer to these concerns that individual
schools are not required to make such payments. Opp.
3. As noted by Justice White in Board of Regents, absent jointly adopted amateurism rules, a race to the
bottom is inevitable: “No single institution could confidently enforce its own standards since it could not
trust its competitors to do the same.” 468 U.S. at 122
(White, J., dissenting).
Fifth, we show in the petition that the holdings
below threaten to undermine the validity of all joint
ventures. Pet. 31. For the reasons already noted,
plaintiffs’ response—that the NCAA is not a joint venture—is plainly wrong. Consequently, there is little
doubt that the Ninth Circuit’s approach will subject
the standards adopted by legitimate business joint
ventures to continuous judicial second-guessing, with
treble damages imposed if the businesses guess wrong
on the judicial response. See Amici Antitrust Economists Br. 11-13; Amici Antitrust Law and Business
School Professors Br. 7-9.
Finally, plaintiffs’ presentation confirms that the
changes to the student-athlete payment rules that
they demand are more appropriately presented to
Congress and the states than to an antitrust court.
Plaintiffs invoke concerns of equity and policy. Opp. 56, 29-30. But those considerations, which avowedly
are motivating Congress’s and the states’ current consideration of legislation addressing student-athlete

12
compensation, have no place in the antitrust-law
analysis. Pet. 32. Absent correction of the errors made
below, any forthcoming legislation will be premised
on the Ninth Circuit’s misstatement of the existing
Sherman Act constraints on NCAA rules, which inevitably will distort the development of new standards
in this important area. Correction of the errors made
below therefore would clarify antitrust principles,
while assuring that litigation and legislation remain
on appropriately separate paths.
CONCLUSION
The petition for a writ of certiorari should be
granted.

13
Respectfully submitted.
BRITT M. MILLER
ANDREW S. ROSENMAN
JED W. GLICKSTEIN
Mayer Brown LLP
71 South Wacker Dr.
Chicago, IL 60606
(312) 782-0600

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

Counsel for The Big Ten Conference, Inc.

[Additional counsel on following pages]
NOVEMBER 2020

14
ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Los
Angeles, CA 90067
Washington, D.C. 20001
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

15
R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

